U.S. Department of Labor               Office of Inspector General
                                       Washington, DC. 20210




   September 28, 2012


   Joseph A. Main
   Assistant Secretary
    for Mine Safety and Health
   1100 Wilson Blvd.
   Arlington, VA 22209

                Interim Report: MSHA Needs to Strengthen Planning and Procurement for
                Metal and Nonmetal Mine Rescue Contests
                Report No. 05-12-004-06-001

   Dear Assistant Secretary Main:

   We received three complaints regarding the Mine Safety and Health Administration’s
   (MSHA) Metal and Nonmetal Mine Rescue Training Contests (Contests). The
   complaints alleged MSHA wasted hundreds of thousands of dollars by sending
   employees to Reno, NV, for the Contests and further alleged MSHA’s managers were
   upgraded to deluxe suites and provided complimentary cocktail parties, limousine rides,
   clothing, and other items.

   MSHA held its five most recent Contests in Reno, NV, and had planned to hold the
   2012 contest there. Since MSHA is primarily responsible for mine rescue standards and
   procedures, it organizes and hosts the Contest, makes the rules, provides judges, and
   charges entry fees to participants and vendors for the Contests.

   Given the seriousness of the allegations and the recent congressional and media
   interest surrounding the General Services Administration’s (GSA) conference in Las
   Vegas, we began an audit to investigate the validity of the complaints.

   Interim Results and Findings

   Although our audit of the 2012 Contest plans continues, we have found MSHA did not:

      1) follow proper approval and contracting procedures,
      2) document its fee structure methodology, or
      3) fully account for contest fees and costs.

   Two common threads ran through these findings: (1) MSHA did not work with its
   procurement staff from the outset, and (2) MSHA could not provide clarity regarding
   who actually organized the Contests. Although MSHA chose the venues and contracted
Interim Report: MSHA’s Mine Rescue Contests


for space, it could not detail how it calculated the entry fees it charged participants. In
addition, it passed these fees directly to the hotel instead of depositing them into a
custodial account and using them to cover Contest costs. Moreover, MSHA did not have
a structure in place to account for the fees after they were received by the hotel or to
account for the costs related to those fees.

MSHA Did Not Follow Proper Approval and Contracting Procedures

MSHA did not comply with an October 12, 2011, memorandum from the Deputy
Secretary that requires written approval of all conference-related activities and
expenses prior to commitment of any funds. We found that MSHA entered into a
contract with the Reno-Sparks Convention and Visitors Authority (RSCVA) on
November 30, 2011. The OIG has also obtained a copy of a contract between MSHA
and the Peppermill Hotel in Reno, NV, dated October 25, 2011. However, there is a
question regarding the validity of the MSHA signature on this contract. If this contract is
determined to be valid and enforceable, MSHA may have exposed itself to liability by
using the hotel’s standard contract, which included an impermissible indemnification
clause stating that MSHA would indemnify and hold the hotel harmless against all
losses and liabilities. Such a clause is impermissible because it would violate the
Antideficiency Act by agreeing to an unlimited and indefinite liability. The OIG is
continuing to review the circumstances surrounding the negotiation and execution of
this contract.

Further, MSHA did not submit the required decision memorandum seeking approval of
the 2012 Contest until April 11, 2012, which was more than 5 months after executing its
first contract. The decision memorandum disclosed MSHA’s contracts with the RSCVA
and the Peppermill Hotel, as well as MSHA’s efforts to reduce costs by reducing the
number of employees attending the 2012 Contest from 117 for the 2010 Contest to 62.
However, MSHA failed to disclose in this same narrative its plan to utilize 430 hotel
rooms, 30 more than 2010. Because MSHA had not complied with the Deputy
Secretary’s directive, it committed the federal government to significant potential costs
before its plans had been properly vetted and approved.

MSHA Did Not Document Its Fee Structure Methodology

MSHA invited teams and vendors to register for the 2012 Contest by completing
registration forms and paying entry fees of $750 per team and $1,000 per vendor. Office
of Management and Budget Circular A-25 requires the Government to recover the cost
of its services in certain cases. MSHA could have incorporated the costs of organizing
and supporting the Contest into its fee calculations; however, the way MSHA calculated
the fees is unclear.

MSHA Did Not Fully Account For Contest Fees And Costs

MSHA asked teams and vendors to pay entry fees by check or money order made
payable to the Peppermill Hotel. MSHA would then collect the payments and pass them

                                              -2-
Interim Report: MSHA’s Mine Rescue Contests


to the hotel. MSHA expected the hotel to credit an event account and use the funds to
pay for a vendors’ reception and an awards banquet. Because MSHA did not plan to
receive or approve a list of expected costs, it is unclear what costs were to be incurred
and what the fees were meant to cover. As the Contest organizer, MSHA accepted a
duty to ensure that costs and fees were appropriate, that the hotel properly accounted
for all event funds, and that Contest funds were not used for unallowable or
inappropriate expenditures.

Conclusions

These issues occurred because MSHA did not solicit the assistance of its procurement
function early enough in the planning process for the 2012 Contest. Additionally, MSHA
did not retain the entry fees, apply them to costs, or appropriately account for the use of
funds. Addressing these issues will help ensure that MSHA plans its Contests
consistent with the Department’s goal of reducing conference costs, protects itself from
potential liability, appropriately determines expected costs, and accurately accounts for
Contest funds.

The preliminary results discussed in this interim report are based on our work to date
related to the planned 2012 Contest. Audit fieldwork covering the Contests MSHA held
in 2006, 2008, and 2010, as well as the 2012 Contest, continues and we will report
separately when that work is completed. Please note that there may be additional
findings related to the planned 2012 Contest.

Recommendations

We recommend the Assistant Secretary for Mine Safety and Health: (1) design and
implement controls to ensure all conferences are properly planned and no commitment
of resources is made prior to approval by required officials; (2) partner with its
procurement team from the outset to ensure contracts contain all appropriate clauses
and exclude impermissible clauses; (3) determine Contest fees and properly match fee
amounts to expected costs to the Government; (4) review and approve all expected
costs before they are incurred; and (5) account for all funds, whether derived from
Contest fees or MSHA funds, expended in connection with Contests.

Agency Response

In response to the draft interim report, the Assistant Secretary of Labor for MSHA did
not disagree with any of the recommendations. He stated that MSHA has already
imposed greater internal funds controls and procedural improvements in connection
with planning, approvals, contracting, and disbursement procedures so as to address
identified shortcomings and to comply with all applicable laws and procedures. This will
include assuring that MSHA adheres to the Department’s conference approval policy.

Please see the attachment for MSHA’s full response.



                                              -3-
Interim Report: MSHA’s Mine Rescue Contests


We appreciate the cooperation and courtesy MSHA has provided us during this audit.




Elliot P. Lewis
Assistant Inspector General
 for Audit

Attachment




                                              -4-
Attachment
Attachment
